                           Office of Inspector General
                          Corporation for National and
                                   Community Service




AUDIT OF EARNED EDUCATION AWARDS
   RESULTING FROM COMPELLING
     PERSONAL CIRCUMSTANCES

            OIG REPORT 12-04




               1201 New York Ave, NW
                     Suite 830
                Washington, DC 20525

                    (202) 606-9390


This report was issued to Corporation management on November 9, 2011.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report’s findings and
recommendations no later than May 9, 2012 and complete its corrective actions
by November 9, 2012. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                      November 9, 2011

TO:           Margaret Rosenberry
              Director, Office of Grants Management

FROM:         Stuart Axenfeld /s/
              Assistant Inspector General for Audit

SUBJECT:      Office of Inspector General (OIG) Report 12-04: Audit of Earned Education
              Awards Resulting from Compelling Personal Circumstances

Attached is the final report on the OIG’s Audit of Earned Education Awards Resulting from
Compelling Personal Circumstances. This audit was performed by OIG staff in accordance with
generally accepted government auditing standards.

Under the Corporation’s audit resolution policy, a final management decision on the findings in
this report is due by May 9, 2012. Notice of final action is due by November 9, 2012.

If you have questions pertaining to this report, please contact Thomas Chin, Audit Manager, at
(202) 606-9362 or t.chin@cncsoig.gov; or me at (202) 606-9360 or s.axenfeld@cncsoig.gov.

Attachment

cc:   Kim Mansaray, Acting Chief Operating Officer
      Idara Nickelson, Chief of Program Operations
      William Anderson, Chief Financial Officer
      John Gomperts, Director, AmeriCorps*S&N
      Mary Strasser, Director, AmeriCorps*VISTA
      Kate Raftery, Director, AmeriCorps*NCCC
      Michael Berning, Director, Office of Field Liaison
      Valerie Green, General Counsel
      Claire Moreno, Audit Liaison, Office of Grants Management




                  1201 New York Avenue, NW  Suite 830  Washington, DC 20525
                     202-606-9390  Hotline: 800-452-8210  www.cncsoig.gov

                       Senior Corps  AmeriCorps  Learn and Serve America
                                                            CONTENTS

Section                                                                                                                            Page

Executive Summary ........................................................................................................          1

Results of Audit ...............................................................................................................    4

Objectives, Scope, and Methodology .............................................................................. 10

Background ..................................................................................................................... 12

Exit Conference ............................................................................................................... 14

Corporation Response .................................................................................................... 14

OIG Comment ................................................................................................................. 15


Appendices

A: Details of Finding No. 1: Improperly Certified Awards and Disbursed Costs by Invalid
   Compelling Personal Circumstance Justification Subcategories

B: Summary of Findings Sorted by Type of Program

C: OIG Reports Issued from January 2010 to August 2011 with Compelling Personal
   Circumstances Findings

D: Corporation’s Response to Draft Report




                                                    TABLE OF ACRONYMS

                   ACL                                    Audit Command Language
                   AUP                                     Agreed-Upon Procedures
                   CFR                                   Code of Federal Regulations
                   CPC                                Compelling Personal Circumstance
                  NCCC                                National Civilian Community Corps
                   OIG                                    Office of Inspector General
                  OMB                                 Office of Management and Budget
                  VISTA                                Volunteers in Service to America
                  WBRS                                  Web-Based Reporting System
                                      EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation) performed the Audit of Earned Education Awards Resulting from Compelling
Personal Circumstances to determine whether the AmeriCorps members exited the program
based on a valid compelling personal circumstance (CPCs) justification according to Title 45 of
the Code of Federal Regulations (C.F.R.) § 2522.230. Additionally, we evaluated whether the
AmeriCorps programs maintained adequate supporting documentation to validate the CPC. We
also assessed the Corporation’s internal controls surrounding the CPC’s review and
authorization process. Based on our results, we noted a wide-spread noncompliance for 75
percent of our tested population, resulting in total questioned costs of $328,574, of which
$120,352 was identified as improper payments.

The Corporation provides grants to its State Commissions, National Direct grantees, Volunteers
in Service to America (VISTA), and National Civilian Community Corps (NCCC) programs in
order to administer the AmeriCorps education award program. The AmeriCorps program is a
network of partnerships with local and national nonprofit organizations that offer opportunities
for people to dedicate themselves for a period of time to volunteer service in their local
communities. Members who complete their full term of service in accordance with the member
contract can earn a Segal AmeriCorps education award to pay for college, graduate school, or
to pay back qualified student loans. According to Title 45 C.F.R. § 2522.230, a pro-rated
education award is only available to a participant who is released by the program for a CPC and
who completes at least 15 percent of the required term of service.

As the C.F.R. states, an AmeriCorps program may release a participant from completing a term
of service for a CPC as demonstrated by the participant, or for cause. A CPC includes critical
situations that are beyond the participant’s control, such as a participant’s or the participant’s
family member’s disability or serious illness, or conditions attributable to the program that make
completing a term unreasonably difficult or impossible. A CPC may also include situations that
the Corporation has determined for public policy reasons, such as military service obligations,
employment opportunities by a participant serving in a program that promotes employment
among its participants, or employment opportunities for a participant to transition from welfare to
work. All other employment reasons do not qualify as a CPC.

Recent OIG audits and investigations repeatedly revealed CPC-related findings and questioned
costs whereby the AmeriCorps programs approved partial education awards to early-exited
members in spite of improper CPC justifications in accordance with Title 45 C.F.R. § 2522.230
and insufficient supporting documentation. For these reasons, the OIG has conducted this
audit.

The OIG performed a risk assessment over the entire population of CPC cases from July 1,
2007, to June 30, 2009 in order to determine the audit’s sample size. In total, we tested 188
CPC cases and performed a walkthrough of five CPC cases for members who received a partial
education award during our audit period from the Corporation’s programs – AmeriCorps State
and National (State Commission, National Direct, and Tribes), VISTA, and NCCC. During our
testing, we reviewed each member’s CPC justification for compliance with Federal regulations
(Title 45 C.F.R. § 2522.230) and assessed whether the AmeriCorps program’s and the
Corporation’s system possessed adequate controls over the CPC documentation, authorization,
and review process. We noted only 18 percent of our tested population properly administered
the members’ exit from the AmeriCorps program in compliance with Federal regulations and

                                                1
AmeriCorps provisions over CPC. Some of the examples of improperly certified partial
education awards due to CPC included: members returned to school; member left the program
due to alcohol/substance abuse or bad behavior; members did not complete the program due to
late enrollment or errors made by programs.

The following graphs and tables illustrate a summary of the audit results for our tested
population.

Graph 1 depicts the overall audit results. Among 193 CPC cases (including five walkthrough
items), we noted 144 cases (75 percent) with at least one or more audit findings, 35 cases (18
percent) with no audit findings; 10 cases (5 percent) where the programs did not respond to our
audit request; and 4 cases (2 percent) where members exited from the AmeriCorps program for
a non-CPC reason.

                                 Graph 1: Overall CPC Audit Results




Graph 2 illustrates the audit finding categories and the relationship between each finding and
the deficient population (within the above 75 percent). We noted that 55 percent of the deficient
CPC cases possessed two or more findings.

                                 Graph 2: CPC Audit Finding Details


     LEGEND
     36% - (1): Members with Invalid CPC                               1%
                  Justifications ONLY
     8% - (2): Members with Supporting
                 Documentation Deficiencies
                 ONLY
     1% - (3): Members with Monitoring
                  Control Deficiencies ONLY                       5%
     47% - (1) & (2): Members with
                Invalid CPC Justifications AND                           3%
                Supporting Documentation
                Deficiencies
     5% - (1) & (3) Members with Invalid                                47%
                CPC Justifications AND
                Monitoring Control Deficiencies                36%
     3% - (1), (2), & (3): Members with ALL                                          8%
                three Deficiencies




                                                  2
Table 1 quantifies the total improperly certified awards1 and the total disbursed costs2 according
to the audit findings. We questioned a total of $328,574 for partial education awards resulting
from invalid CPC justifications or inadequate support and approval for the education awards.
Additionally, we identified $120,352 of disbursed costs (improper payments) which were paid to
AmeriCorps members’ financial or education institutions as of May 30, 2011.

Table 1: Summary of Improperly Certified Awards (Questioned Costs) & Disbursed Costs
                                          Improperly
             Audit Findings                Certified        Disbursed Costs
                                            Awards

              Invalid CPC Justifications                          $298,798                      $100,889
              Supporting Documentation
                     Deficiencies                                    182,956                      76,704

          Monitoring Control Discrepancies                           20,029                        7,836

              Two or more audit findings3                         (173,209)                      (65,077)

                       Total Amount                               $328,574                      $120,352
Table 2 summarizes the OIG’s recommendations according to the audit findings. Our
recommendations aim to strengthen the Corporation’s controls in order to better safeguard
Federal assets.

                                Table 2: Summary of Audit Recommendations
Audit Findings                   Audit Recommendations
1) Invalid CPC                   a) Disallow and recoup questioned costs of $298,798
   Justifications                b) Provide training over the CPC criteria
                                 c) Review CPC criteria interpretation and language
2) Supporting                    a) Disallow and recoup questioned costs of $27,508
   Documentation                 b) Provide training over CPC proper documentation requirements
   Deficiencies
3) Monitoring Control            a) Disallow and recoup questioned costs of $2,268
   Deficiencies                  b) Implement the MyAmeriCorps Portal functionality to document CPC
                                 c) Implement additional monitoring controls which include
                                    a secondary level of review, submission of supporting
                                    documentation to the secondary reviewer, and implementation of the
                                    review over CPC

1
 Improperly Certified Awards refers to the amount of partial education awards that were improperly approved and obligated to
AmeriCorps members by the AmeriCorps programs. They represent the total questioned cost in this audit.

2 Disbursed Costs refers to the amount of improper payments that have been disbursed at the completion of our fieldwork. These
were improperly certified awards approved by the AmeriCorps programs and subsequently disbursed to the members’ financial or
education institutions. According to the Improper Payments Elimination and Recovery Act of 2010, improper payments are defined
as “any payment that should not have been made or that was made in an incorrect amount under statutory, contractual,
administrative, or other legally applicable requirements.”
3
 This line item accounts for tested CPC cases that resulted with more than one audit finding category. In this report, the improperly
certified awards and disbursed costs are classified by finding category; therefore, if one CPC case is noncompliant under two finding
categories, the improperly certified awards and disbursed costs are included in each finding category. To prevent double counting,
we offset the improperly certified awards and disbursed costs for cases with multiple audit findings against this line item.
                                                                 3
                                      RESULTS OF AUDIT

Finding 1. Invalid CPC Justifications

During our audit testing, we requested the grantees to provide all CPC-related documents from
the members’ file to the OIG. Based on our review of the members’ CPC documents, we
identified 131 members who exited the program for reasons that did not qualify as a valid CPC
in accordance with the Title 45 C.F.R. § 2522.230. Subsequently, those members were
improperly granted a partial education award. Based on our audit results, we categorized the
following reasons as invalid CPC justifications:

   1. Member experienced absences or enrolled into the program late and could not complete
      his/her full-term service hours;

   2. Non-welfare member voluntarily left the program to find a full-time job or to move out of
      the area due to economic, financial, or housing hardships. Additionally, the program did
      not qualify as one that included as its objectives the promotion of employment among its
      participants;

   3. Member returned to school;

   4. Member voluntarily left the program due to difficult personal circumstances, which are
      not consistent with the CPC criteria set out in the C.F.R.;

   5. Member experienced a short-term medical condition, and the medical documents did not
      indicate if it was unreasonably difficult or impossible for the member to complete his/her
      remaining term of service;

   6. Member was pregnant and could not complete her service term;

   7. Member left the program due to cause (for example, alcohol or substance abuse, bad
      behavior);

   8. Member could not find a suitable alternative AmeriCorps assignment, after being
      removed from a previous program due to cause;

   9. Member was suspended from the program, but was subsequently provided a partial
      education award;

   10. Member noted a medical condition with no external supporting documentation –
       documents outside of the AmeriCorps program and member to validate the CPC;
       therefore, the member’s CPC could not be determined or justified; and

   11. Member did not provide or program did not maintain any internal or external supporting
       documentation to validate the member’s CPC justification; therefore, member’s CPC
       could not be determined or justified.

Refer to Appendix A for the details of improperly certified awards and disbursed costs for the
above invalid CPC justification subcategories.


                                               4
We noted that 79 of 131 members (60 percent) with this finding also had at least one other audit
finding(s). Table 3 below illustrates the number of members and associated costs for each
invalid CPC finding combination.

             Table 3: Summary of Finding No. 1 and its Finding Combination

                                                         Number       Improperly
                                                           of          Certified     Disbursed
            Audit Finding Combination                    Members        Awards          Cost

          (1) Invalid CPC Justifications only               52         $137,338       $40,490

          (1) Invalid CPC Justifications and
     (2) Supporting Documentation Deficiencies              67          143,699        54,831

           (1) Invalid CPC Justifications and
          (3) Monitoring Control Deficiencies                7           6,012           890

            (1) Invalid CPC Justifications,
   (2) Supporting Documentation Deficiencies, and
         (3) Monitoring Control Deficiencies                 5          11,749          4,678

                         Total                              131        $298,798       $100,889

Title 45 C.F.R. § 2522.230(a)(5) (2008), “Under what circumstances may AmeriCorps
participants be released from completing a term of service, and what are the consequences?”
states, in part:

       (5) Compelling personal circumstances include:
       (i) Those that are beyond the participant's control, such as, but not limited to:
               (A) A participant's disability or serious illness;
               (B) Disability, serious illness, or death of a participant's family member if this
               makes completing a term unreasonably difficult or impossible; or
               (C) Conditions attributable to the program or otherwise unforeseeable and
               beyond the participant's control, such as a natural disaster, a strike, relocation of
               a spouse, or the nonrenewal or premature closing of a project or program, that
               make completing a term unreasonably difficult or impossible;
       (ii) Those that the Corporation, has for public policy reasons, determined as such,
       including:
               (A) Military service obligations;
               (B) Acceptance by a participant of an opportunity to make the transition from
               welfare to work; or
               (C) Acceptance of an employment opportunity by a participant serving in a
               program that includes in its approved objectives the promotion of employment
               among its participants.




                                                5
2008 AmeriCorps Special Provisions Section IV.E. Release from Participation, states:

       Grantees may release members from participation for two reasons: (a) for compelling
       personal circumstances; and (b) for cause. See 45 CFR §2522.230 for requirements. In
       addition to the regulations, the following applies:

       No Automatic Disqualification if Released for Cause: A release for cause covers all
       circumstances in which a member does not successfully complete his/her term of
       service for reasons other than compelling personal circumstances. Therefore, it is
       possible for a member to receive a satisfactory performance review and be released for
       cause. For example, a member who is released for cause for a first term for personal
       reasons–e.g. he/she has decided to take a job offer–but who, otherwise, was performing
       well up until the time he/she decided to leave, would not be disqualified for a subsequent
       term as long as he/she received a satisfactory performance evaluation for the period
       he/she served.

During our testing, we determined the AmeriCorps programs’ misinterpretation of the C.F.R.
criteria attributed to 91 percent of the audit’s total improperly certified awards. We also noted
inconsistency of judgment made by different programs on CPC. As a result, we question a total
of $298,798 due to invalid CPC justifications combination.

Recommendations

We recommend the Corporation:

   1a) Disallow and recoup the questioned cost of $298,798;

   1b) Provide training to Corporation and grantee personnel on the CPC regulations. The
       training should focus on:

              1) Defining the Federal regulations for CPC:
                     release for cause versus CPC;
                     the Provision’s “no automatic disqualification if released for cause;”
                     the severity of medical and personal conditions that qualify as CPC;
                     the C.F.R.’s language “beyond the participants control.”
              2) Partial education awards:
                     examples of situations where programs can issue partial education
                         awards;
                     examples of qualified and nonqualified recipients of partial education
                         awards.
              3) Available alternatives for a member to temporarily leave the program and
                 complete his/her term of service at a future date to receive the full education
                 award:
                     temporary suspension;
                     member slot adjustment; and

   1c) Update Provisions and provide guidance (for example, FAQ and memorandum) on
       interpretations to the Title 45 C.F.R. §2522.230 related to CPC and cause that properly
       reflect the Corporation’s position for granting partial education awards.

                                               6
Finding 2. Supporting Documentation Deficiencies

During our audit, we identified 84 CPC cases with insufficient documentation to validate the
AmeriCorps members’ CPC. We noted the following attributes as supporting documentation
deficiencies:

     1. No supporting documentation related to CPC at all in the member file;

     2. Lack of sufficient internal documentation supporting the program’s approval of the partial
        education award resulting from CPC (for example: lack of the member’s exit form, e-mail
        correspondence between the member and program director authorizing the CPC exit,
        resignation letter, etc.);

     3. Lack of sufficient external supporting documentation to validate the member’s CPC (for
        example, lack of doctor’s notes4 supporting a severe illness or disability in accordance
        with Title 45 C.F.R. §2522.230, court orders, new employment letters, death certificates,
        etc.); and

     4. Doctor’s notes indicated that the member was excused from short-term service;
        however, doctor’s notes did not state or confirm the members’ medical condition
        prevented him/her from completing the full term of service after the short-term medical
        condition.

We noted 72 of 84 members (86 percent) with this finding had at least one other audit finding(s).
Table 4 below illustrates the number of members and associated costs for each supporting
documentation finding combination.

                   Table 4: Summary of Finding No. 2 and its Finding Combination

                                                                           Number            Improperly
                                                                             of               Certified          Disbursed
                 Audit Finding Combination                                 Members             Awards               Cost

    (2) Supporting Documentation Deficiencies only                              12              $27,508            $17,195

            (1) Invalid CPC Justifications and
       (2) Supporting Documentation Deficiencies                                67              143,699             54,831

             (1) Invalid CPC Justifications,
    (2) Supporting Documentation Deficiencies, and
          (3) Monitoring Control Deficiencies                                    5              11,748               4,678

          Audit Finding included in Finding No. 1                              (72)            (155,447)           (59,509)

                                  Total                                         12              $27,508            $17,195




4
 Most organizations require a doctor’s note to support eligibility for paid sick leave in excess of three days (Absence Management
Practices Survey dated June 2010 conducted by the Employers Resource Council).
                                                                 7
Title 45 C.F.R. § 2522.230(3),(4) (2008), “Under what circumstances may AmeriCorps
participants be released from completing a term of service, and what are the consequences?”
states, in part:

         (3) The participant has the primary responsibility for demonstrating that compelling
         personal circumstances prevent the participant from completing the term of service.

         (4) The program must document the basis for any determination that compelling
         personal circumstances prevent a participant from completing a term of service.

During our testing, we determined that the substantial number of documentation deficiencies
was due to the programs’ lack of knowledge of the CPC documents required by the regulation.
This attributed to 8 percent of the audit’s total improperly certified awards (for Finding No. 2
only). Sufficient supporting documentation is necessary to ensure partial education awards are
properly administered and to minimize the potential abuse over the awards. As a result, we
question a total of $27,508 due to supporting documentation deficiencies.

Recommendations

We recommend the Corporation:

    2a) Disallow and recoup the questioned cost of $27,508; and

    2b) Provide training to Corporation and grantee personnel on the CPC documentation
        requirements. The training should focus on, but are not limited to:

                       Identifying and reviewing examples of external documentation to validate
                        CPC;
                       Program director’s supporting documentation acknowledging the member’s
                        CPC and authorization over the partial education award; and
                       Resignation letters provided by member justifying CPC.


Finding 3. Monitoring Control Deficiencies

The legacy Web-Based Reporting System (WBRS5) required the AmeriCorps programs to
document the CPC justification for members exiting the program due to CPC. During our audit,
we identified 13 cases where the members’ CPC justifications in WBRS were inconsistent with
the member’s actual reasons he/she exited the program.

We noted 12 of 13 members (92 percent) with Monitoring Control Deficiencies also had an
invalid CPC justification in accordance to the Title 45 C.F.R. § 2522.230. Table 5 below
illustrates the number of members and associated costs for each monitoring control finding
combination.




5
 WBRS was a Corporation system that was implemented during fiscal year 2000 and was used to maintain data for National
Service Trust and grantees’ financial status reports. WBRS was discontinued in July 2009 and was replaced by the MyAmeriCorps
Portal.
                                                             8
             Table 5: Summary of Finding No. 3 and its Finding Combination

                                                       Number       Improperly
                                                         of          Certified     Disbursed
            Audit Finding Combination                  Members        Awards          Cost

       (3) Monitoring Control Deficiencies only             1          $2,268        $2,268

          (1) Invalid CPC Justifications and
         (3) Monitoring Control Deficiencies                7          6,012           890

            (1) Invalid CPC Justifications,
   (2) Supporting documentation Deficiencies, and
         (3) Monitoring Control Deficiencies                5          11,749         4,678

       Audit Finding included in Finding No. 1            (12)        (17,761)       (5,568)
                        Total                               1          $2,268        $2,268

The Corporation no longer utilizes the WBRS as the information technology system to record
and retain AmeriCorps members’ data. While WBRS allowed the AmeriCorps grantee
personnel to include the member’s CPC justification (in text descriptions) for each CPC-exited
member, the MyAmeriCorps Portal currently does not have the functionality to document the
justification as text descriptions. This lack of visibility of CPC justifications limits the
Corporation’s ability to monitor and track the member’s CPC justifications for reasonableness.

Based on our review over the authorization process for partial education awards due to CPC,
we determined that, subsequent to the programs’ request for a partial education award,
Corporation personnel process partial education awards based on the assumption that the
AmeriCorps program has reviewed and authorized the member’s CPC justification in
accordance with the Federal regulations and grant provisions. With the exception of NCCC in
which its program is administered directly by the Corporation personnel, the Corporation does
not perform a review of the individual member CPC justification for reasonableness for grantees
from AmeriCorps State and National and VISTA. We also noted that CPC review and approval
processes vary among different State Commissions and grantees. As a result, we noted
judgment and interpretations of CPC provisions were not applied in a uniform manner among
State Commissions and grantees. Without a second-level review conducted by the Corporation,
there is a risk that partial education awards could be granted to ineligible members due to
invalid CPC justifications.

OMB Circular A-123, Management’s Responsibility for Internal Controls, Part II, Standards, E.
Monitoring, states:

       Monitoring the effectiveness of internal control should occur in the normal course of
       business. In addition, periodic reviews, reconciliations or comparisons of data should be
       included as part of the regular assigned duties of personnel. Periodic assessments
       should be integrated as part of management’s continuous monitoring of internal control,
       which should be ingrained in the agency’s operations. If an effective continuous
       monitoring program is in place, it can level the resources needed to maintain effective
       internal controls throughout the year.

                                                  9
       Deficiencies found in internal control should be reported to the appropriate personnel
       and management responsible for that area. Deficiencies identified, whether through
       internal review or by an external audit, should be evaluated and corrected. A systematic
       process should be in place for addressing deficiencies.

We determined that the Monitoring Control Deficiencies were due to the lack of a secondary
organization’s review outside of the AmeriCorps program over individual CPC cases.
Monitoring Control Deficiencies attributed to less than one percent of the overall audit’s total
improperly certified awards. As a result, we question a total of $2,268 due to monitoring control
deficiencies.

The Corporation, as noted in the internal control improvement plan, plans to conduct reviews
over a sample of partial education awards resulting from CPC and send annual reminders to
grantees on CPC regulations.

Recommendations

We recommend the Corporation:

   3a) Disallow and recoup the questioned cost of $2,268;

   3b) Implement the text description functionality in the MyAmeriCorps Portal to allow grantee
       personnel and the Corporation (for NCCC members) to document the CPC justification;
       and

   3c) Implement the following monitoring controls over the CPC process:

              1) Require a secondary level of review (depending on the grant, either State
                 Commission or the Corporation) to document the review of each individual
                 CPC case for valid justification, proper supporting documentation, and the
                 correct documented justification in the MyAmeriCorps Portal;

              2) Revise policy and procedure to require all AmeriCorps programs to provide
                 members’ CPC supporting documentation to the secondary level reviewer;
                 and

              3) Implement the plan in reviewing a sample of CPC cases as part of the annual
                 internal control review, focusing on the validity of the member’s CPC
                 justification in accordance with Title 45 C.F.R. § 2522.230, adequate
                 supporting documentation for a member exited for CPC, and adequate
                 authorization by the program personnel.


                            OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted our performance audit in accordance with generally accepted government audit
standards. Those standards required that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

                                               10
Our audit objectives were to determine whether (1) approved justifications for compelling
personal circumstances were supported and were consistent with AmeriCorps regulations, and
(2) internal controls over Corporation and/or grantee processes related to compelling personal
circumstances are sufficient to ensure compliance with laws, regulations, and Corporation
policies.

We reviewed AmeriCorps members’ CPC cases that were approved from July 1, 2007, to June
30, 2009. As part of our sampling methodology6, the OIG performed a risk assessment over the
entire population for CPC exited members for the two year period. The population file was
generated from the legacy WBRS system for all AmeriCorps members who were approved for a
partial education award due to CPC during the audit period. As show in the Table 6 below, we
preliminarily assessed the non-VISTA programs’ population by classifying each CPC case into
four risk categories, beginning with the highest risk. The sample selected was calculated
according to the number of CPC cases multiplied by our calculated risk level.

                                 Table 6: Sample Size by Risk Assessment


        Risk assessment                       Explanation                    Total CPC Cases              Sample
                                                                              x by risk level              Size

       Stratum A: Very              CPC justification                            363 (9.92%)                 15
       Likely not Justified         descriptions clearly
       - High Risk                  appeared not in compliance
                                    with CPC criteria

       Stratum B: Likely            CPC justification                            311 (8.49%)                 13
       not Justified                descriptions likely appeared
       - Moderate Risk              not in compliance with CPC
                                    criteria

       Stratum C: Appears           CPC justification                          2,201 (60.12%)                90
       to be Justified              descriptions appeared to be
       - Low Risk                   in compliance with CPC
                                    criteria

       Stratum D:                   CPC justification                           786 (21.47%)                 32
       Insufficient                 descriptions do not provide
       Information /                sufficient basis to determine
       No Justification             compliance of CPC criteria
       Provided

       TOTAL                                                                    3,661(100%)                 150




6
 The OIG based its sampling methodology and sample sizes according to the AICPA Codification of Statements on Auditing
Standards, AU Section 350, Audit Sampling (originally based on SAS 39, as amended by SAS 111); AU Section 9350, Audit
Sampling: Auditing Interpretations of Section 350 and the AICPA Auditing Practice Release, Audit Sampling.


                                                            11
The CPC file for VISTA members, as provided by the Corporation, did not contain CPC
justification descriptions. For our analysis and sampling purposes, we identified the total
number of CPC cases approved for VISTA members and utilized a data analysis software, Audit
Command Language (ACL), to randomly select 19 VISTA members.

In order to assess the Corporation’s programs overall internal control environment, we selected
one member from each of the Corporation’s programs – AmeriCorps State and National
(including one State Commission, one National Direct, and one National Tribes), VISTA, and
NCCC (five members total), and performed a walkthrough of the AmeriCorps program’s internal
controls over the CPC’s justification, documentation, and authorization process.

During our fieldwork, 19 additional AmeriCorps members7 were identified by the Virginia Office
on Volunteerism and Community Service as ineligible for partial education awards. In total, we
tested 193 members. They are classified according to the following program types:

        112 members from State Commissions
        57 members from National Directs
        20 members from VISTA
        3 members from National Tribes
        1 member from NCCC

Refer to Appendix B for a summary of the audit findings according to the Corporation’s
programs.

We excluded cases of audit findings related to CPC that were identified in other OIG’s audits,
agreed-upon procedures (AUP), and investigations from our population files.

We performed our fieldwork at the Corporation Headquarters between June 2010 and May
2011, as our fieldwork was temporary suspended during the period due to other work priorities.
We contacted and interviewed Corporation personnel and grantees, requesting supporting
documents from the members’ files to validate the CPC justification and authorization of CPC
cases. In addition, we obtained an understanding of the AmeriCorps programs’ CPC approval
process. We also reviewed copies of the members’ resignation letters, program directors’
authorizations for the member’s partial education awards, doctor’s notes, and court orders to
validate the CPC. We analyzed the information gathered and documented the results and
issues noted. We also coordinated with other OIG personnel to identify reported CPC cases in
previous or current audits, AUPs, and investigations.


                                                      BACKGROUND

According to the Title 45 C.F.R. § 2522.230, the AmeriCorps program may release a participant
from completing a term of service due to CPC as demonstrated by the participant, or for cause.
If a participant who is released for a CPC, and has completed at least 15 percent of the required
term of service, he/she is eligible for a pro-rated education award. The justification to release

7
  These 19 members who received ineligible partial education awards due to CPC were identified during our recent grant AUP (OIG
Report 11-14) of the Virginia Office on Volunteerism and Community Service. Since these ineligible partial education awards were
not under the scope of that grant AUP, they were not reported in the OIG Report 11-14. However, the Virginia Office on
Volunteerism and Community Service brought to our attention these ineligible partial education awards and we included these
findings in this report.
                                                              12
the participant with an education award must be consistent with the criteria for CPC. CPC, as
stated in Title 45 C.F.R. § 2522.230, include:

      Those that are beyond the participant’s control, such as, but are not limited to:
       1) A participant’s disability or serious illness;
       2) Disability, serious illness, or death of a participant’s family member if this makes
          completing a term unreasonably difficult or impossible;
       3) Conditions attributable to the program or otherwise unforeseeable and beyond the
          participant’s control, such as a natural disaster, strike, relocation of a spouse, or the
          nonrenewal or premature closing of a project or program, that make completing the
          term unreasonably difficult or impossible
      Those that the Corporation, has for public policy reasons, determined as such including:
       1) Military service obligations;
       2) Acceptance by a participant of an opportunity to make the transition from welfare to
          work;
       3) Acceptance of an employment opportunity by a participant serving in a program that
          includes in its approved objectives the promotion of employment amount its
          participants.

The C.F.R. further identifies that:

Compelling personal circumstances do not include leaving a program:
     1) To enroll in school;
     2) To obtain employment, other than moving from welfare to work or in leaving a
          program that includes in its approved objectives the promotion of employment
          among its participants;
     3) Because of dissatisfaction with the program

Table 7 below shows the number and amount of members who earned education awards from
fiscal years 2007 to 2009.

                     Table 7: Historic Data on Earned Education Awards

  Fiscal    Members Earned             Total Amount of      Members           Total Amount of
   Year     Partial Education           Earned Partial       Earned          Earned Education
             Award Due to             Education Awards      Education             Awards
                   CPC                   Due to CPC          Award
  2007            1,851                  $ 4,113,484         54,850             $ 163,152,542
  2008            1,760                  $ 3,833,677         57,817             $ 174,710,225
  2009            1,848                  $ 4,114,227         66,084             $ 201,684,289

In April 16, 2008, we issued OIG report 08-16, Review of Bank Street College of Education’s
Justification for Compelling Personal Circumstances of an AmeriCorps Member, related to a
limited review of a member’s CPC justification from a State Commission’s subgrantee
organization. The audit identified that the program approved a CPC justification, which allowed
a $1,276 partial education award, even though it did not meet the requirements of Title 45
C.F.R. § 2522.230 (a)(5).




                                                 13
Additionally, the OIG continues testing CPC as a standard audit procedure in our State
Commission and grantee audits/AUPs8. Findings associated with CPCs are often reported.
These findings are typically associated with invalid CPC justifications and insufficient
documentation to support CPC justifications. Since January 2010, we have questioned $61,352
due to CPC-related findings. Refer to Appendix C for the list of previous audits and AUPs that
reported CPC-related findings.


                                                EXIT CONFERENCE

We discussed the contents of this draft report with Corporation representatives at an exit
conference on May 26, 2011. The Corporation’s response to the draft report is included in this
final report as Appendix D and is also summarized below.


                                            CORPORATION RESPONSE

The Corporation stated that only a small percentage of total members (3.05 percent) and
education awards (2.24 percent) were associated with CPC and that CPC determinations are
relatively rare. Also, according to the Edward M. Kennedy Serve America Act, Congress gave
AmeriCorps programs the authority to handle CPC determinations for their members.
Therefore, the Corporation has a limited role in the administration of CPC determinations, with
the exception of NCCC and VISTA members.

The Corporation acknowledged that the programs’ discretion and subjective judgments are
required to evaluate a member’s CPC, and that CPC determinations made by the programs are
entitled to a degree of deference. The Corporation acknowledged that 49 percent of the CPC
determinations questioned by OIG were related to documentation issues, and 26 percent were
associated with determinations addressed in the Corporation’s regulations.

The Corporation agreed to take the following corrective actions:

1) Develop written guidance and frequently asked questions for acceptable and unacceptable
CPC examples, alternatives to exit members, and examples of adequate CPC supporting
documents;
2) Review guidance on releasing members for CPC with grantees and sponsors through
technical assistance calls and require the grantees and sponsors to communicate such
guidance with all subgrantees and operating sites;
3) Instruct State Commissions and National Direct grantees to include a review of supporting
documentation for CPC determinations in their site visit monitoring tools;
4) Strengthen the Corporation’s State/National monitoring tools to consistently include reviews
of supporting documentation for CPC determinations; and
5) Review a sample of CPC determinations during the first quarter of Fiscal Year 2012 as a part
of the Corporation’s Internal Control Improvement Plan.

The Corporation stated that it would consider each CPC determination questioned by the OIG
on a case-by-case basis; and therefore, it could not agree or disagree with the OIG’s
recommendation to disallow a total of $378,574 in questioned education awards at this time.

8
 Some of the audits and AUPs were performed by independent accounting firms, whose work were contracted and monitored by
OIG.
                                                          14
The Corporation stated that, while it may recoup some education awards questioned by the
OIG, it would not undertake any action for those CPC cases that were questioned due to the
pregnancy of an AmeriCorps member, as such information could potentially prejudice the
reputation of the former member.

The Corporation also stated that it would not implement the OIG’s recommendation regarding a
secondary review of all CPC determinations performed by either the Corporation or the
applicable State Commission.        The Corporation’s reasons are due to the operational
responsibility of the AmeriCorps programs on CPC determinations, the relatively rare
occurrence of CPC, the very limited financial impact on the National Service Trust, and the low
risk involved with CPC determinations. The Corporation also cited OMB Circular A-123, which
states, “too many controls can result in inefficient and ineffective government; agency managers
much ensure an appropriate balance between the strength of controls and the relative risks
associated with particular programs and operations.”


                                          OIG COMMENT

We acknowledge the Corporation’s planned actions to develop additional guidance, conduct
technical assistance calls with grantees, strengthen site visit monitoring tools, and review a
sample of CPC cases to address our audit findings. Although these planned actions satisfy the
general intent of our recommendations 1b, 1c, 2b, and 3c3, we emphasize that the Corporation
should also incorporate the level of detail noted in each of our recommendations (sub bullets) in
order to thoroughly address specific aspects of CPC regulations and documentation
requirements.

We are concerned that the Corporation has declined to implement key monitoring controls
recommended by the OIG. We believe these controls could significantly mitigate the risk of
future CPC findings, as noted in our audit report. The Corporation stated that it has no direct
role in either making the CPC determinations or the certifications regarding education awards,
with the exception of releasing a VISTA volunteer or a NCCC member from completing a term
of service. The OIG does not dispute the AmeriCorps programs’ operational responsibility and
authority to discern its members’ CPC cases. However, we believe that the Corporation, as the
administrator of the Segal Education awards, has a primary responsibility to safeguard Federal
assets from potential misuse and ensure adequate oversight and compliance with the C.F.R. for
the CPC authorization and disbursement process.

The OIG’s recommendation for a secondary review of the member’s CPC determination serves
as a monitoring control outside of the AmeriCorps program, not as an operational role. While
the Corporation’s planned actions include an examination of CPC determinations as part of the
site monitoring tool, such an examination is limited to the sites the Corporation selects each
year and may or may not include any members exited for CPC. In addition, the timeliness of the
CPC review is solely dependent on the timing of Corporation’s monitoring site visit in relation to
the member’s exit from the program. We believe that the Corporation’s planned actions lack
controls or actions that would detect and prevent, in a real-time basis, the improper certification
and payments of partial education awards for potentially ineligible members. Implementing a
secondary review immediately following the AmeriCorps program’s submission of its member’s
CPC approval would allow the Corporation or State Commissions to independently evaluate and
monitor the CPC justifications’ compliance with the C.F.R. guidelines. In addition, errors could
be identified in a timely manner, thereby minimizing the risk of improperly disbursed funds from

                                                15
the National Service Trust, and limiting the potential for the AmeriCorps programs to repay the
Corporation for any improperly certified awards. We consider this secondary review to be a key
monitoring (not operational) control for the Corporation in detecting potential CPC issues on a
timely basis.

We disagree with the Corporation’s notion that there are low risks involved with CPC
determinations and that such determinations are relatively rare and have a very limited financial
impact on the National Service Trust. As explained in the audit methodology, we only tested a
sample of 193 members with CPC over a two-year period (accounting for only 5.3 percent of the
total population of 3,661 members with CPC). Our sampling resulted in a significant amount,
$328,574, of improperly certified partial education awards and $120,352 of improper payments.
Furthermore, 75 percent of our audit sample included findings related to questionable CPC
justifications, insufficient documentation, or monitoring control deficiencies. The amount of
improperly certified partial education awards and improper payments could be magnified if a
larger sample size was tested.

Title 45 C.F.R. § 2522.230 should be utilized as the criteria for the proper justifications for
exiting a member due to CPC. The C.F.R.’s examples of prohibited and allowable CPC show
an unforeseen and unavoidable serious circumstance that prevents the member’s ability to
complete the term of service. As the AmeriCorps program utilizes its discretion, it is the
program’s responsibility, at a minimum, to adhere to the CPC criteria stated in the C.F.R. If the
member's circumstance does not meet the specific criteria, the AmeriCorps member is ineligible
for the CPC partial education award and, in turn, the AmeriCorps programs can offer other
available options for a member to complete his/her term of service. Also, in response to the
Corporation’s response in footnote 3 regarding pregnant AmeriCorps members, we recommend
that the Corporation consider reviewing these instances on a case-by-case basis as to whether
they constitute a “disability or serious illness,” whereby supporting documentation from a
medical doctor affirms the pregnant member’s CPC (for example, doctor’s order for bed rest)
and specifies the duration when the member cannot serve. All supporting documentation, either
prepared by the AmeriCorps program personnel or provided by a third-party outside the
program, should be maintained in the member’s file.

We recently learned that the Corporation is drafting a memorandum 12-002: Documentation of
Early Termination Requests by Members, which provides guidance to the AmeriCorps VISTA
program’s appropriate justifications for CPC, and requiring supporting documentation, including
doctor’s notes for “disability or serious illness.” As the Corporation reviews its guidance over
CPC, per its planned actions, we encourage the Corporation to develop similar guidance for its
AmeriCorps State and National programs in order to remain consistent with the planned VISTA
policy on CPC.

We noted that the Corporation’s response did not address our recommendation 3b regarding
implementing text description functionality in the MyAmeriCorps Portal to document CPC
justification. The implementation of this tool would enable the AmeriCorps program personnel
to document the CPC justification in the Corporation’s system.          The text description
functionality, similar to the legacy system WBRS, would provide greater visibility of CPC
justifications and identify members who exited the programs due to CPC. It would also act as a
monitoring tool for the State Commission and Corporation personnel by facilitating their reviews
of CPC justifications.



                                               16
As noted in this audit report as well as prior OIG audits and investigations, the lack of monitoring
over CPC determinations and documentation has been identified as a pervasive noncompliance
issue across the Corporation’s programs; therefore, it should not be categorized as low risk.
Our recommendation for a real-time, secondary review of all CPC determinations addresses the
need for a monitoring control that can prevent and detect potential risks associated with CPC in
the most efficient and timely manner. Our recommendation for such a review is based on the
concept of continuous and timely monitoring control, as stated in the Government Accountability
Office’s Standards for Internal Control in the Federal Government:

    Internal control monitoring should assess the quality of performance over time and
    ensure that the findings of audits and other reviews are promptly resolved (emphasis
    added)… Internal control should generally be designed to assure that ongoing
    monitoring occurs in the course of normal operations. It is performed continually and is
    ingrained in the agency’s operations. It includes regular management and supervisory
    activities … and other actions people take in performing their duties.




_______/s/___________________________________
Stuart Axenfeld, Assistant Inspector General for Audit
Office of Inspector General
Corporation for National and Community Service




                                                17
                            Appendix A

                       Details of Finding No. 1:
         Improperly Certified Awards and Disbursed Costs by
Invalid Compelling Personal Circumstance Justification Subcategories




                                18
  Details of Finding No. 1: Improperly Certified Awards and Disbursed Costs by Invalid
             Compelling Personal Circumstance Justification Subcategories

                                                    Improperly Disbursed Number    % of
             Subcategories for
                                                     Certified  Cost as     of    Tested
         Invalid CPC Justifications
                                                      Awards   of 5/30/11 Members Sample
Program assigned member into a service term
where member could not physically complete
all hours due to the member’s late enrollment
    or the program’s improper placement of
              member service term                       $14,107     $5,877    7     6%

 Non-welfare member experienced economic,
financial, housing hardships - left the program
  to find a full time job/moving out of the area         20,341     1,000     15    11%

         Member returned to school                       78,385     27,693    22    17%

     Member experienced difficult personal
 circumstances that led him/her to voluntarily
    leave the program on his/her own terms               32,461     13,591    17    13%

 Member experienced a short term medical
condition, with supporting documents that did
not indicate that the member could not finish
                term of service                          36,342     1,859     15    12%

Member was pregnant and could not finish her
             term of service                             15,220      825       6    4%

    Member left the program due to cause
(alcohol, substance abuse, bad behavior, etc.)           3,631        0       2     2%

  Lack of a suitable alternative AmeriCorps
assignment, after member was removed from
     previous program due to member’s
     incapability to fulfill responsibilities            4,375      2,848     2     2%

 Member was suspended from the program,
 but subsequently still issued a partial award           6,960      3,138     2     2%

 Member noted a medical condition, with no
 external supporting documents; therefore,
  CPC cannot be determined or validated                  65,118     23,162    34    25%

Based on no supporting documentation, CPC
  justification could not be determined and
           therefore does not qualify                    21,858     20,896     9     6%
                    TOTAL                               $298,798   $100,889   131   100%

                                                   19
                 Appendix B

Summary of Findings Sorted by Type of Program




                     20
         Summary of Findings Sorted by Type of Program

                         State Commission
   Finding Category        Member    Improperly      Disbursed
                           Instance    Certified        Cost
                                       Awards
  Findings No. 1, 2, 3         2        $4,729        $2,568
   Findings No. 1, 2          35        68,564        23,349
   Findings No. 1, 3           3         2,407          890
     Finding No. 1            35       107,077        33,861
     Finding No. 2             7        15,611        13,777
     Finding No. 3             1         2,268         2,268

State Commission Total        83        $200,656      $76,713

                          National Direct
   Finding Category        Member      Improperly    Disbursed
                          Instance      Certified       Cost
                                         Awards
  Findings No. 1, 2, 3        2           $4,199       $2,110
   Findings No. 1, 2         20           41,618       13,641
   Findings No. 1, 3          4            3,605          0
     Finding No. 1           11           12,686        2,907
     Finding No. 2            4            8,480          0

 National Direct Total        41         $70,588      $18,658

                               VISTA
   Finding Category        Member       Improperly   Disbursed
                           Instance      Certified      Cost
                                          Awards
   Findings No. 1, 2          11          $30,316     $14,639
     Finding No. 1             5           15,120      3,723
     Finding No. 2             1           3,417       3,417

     VISTA Total              17         $48,853      $21,779

                          National Tribes
   Finding Category        Member      Improperly    Disbursed
                          Instance      Certified       Cost
                                         Awards
  Findings No. 1, 2, 3        1           $2,821         $0
   Findings No. 1, 2          1           3,202        3,202
     Finding No. 1            1           2,454          0

 National Tribes Total         3          $8,477       $3,202

                               NCCC
                         No exception noted.

                                   21
                      Appendix C

OIG Reports Issued from January 2010 to August 2011 with
      Compelling Personal Circumstances Findings




                          22
               OIG Reports Issued from January 2010 to August 2011 with
                     Compelling Personal Circumstances Findings

   OIG                             OIG Report Title                          Questioned
Report No.                                                                     Costs

             Audit for Corporation Grants Awarded to the University of San
  10-08      Francisco – School of Education                                   $ 684

             Audit of Corporation for National and Community Service Grant
  10-10      Awarded to Health Federation of Philadelphia                       175

             Audit of Corporation Grants Awarded to Missouri Community
  10-14      Service Commission                                                6,113

             Audit of Corporation Grants Awarded to Greater Pittsburgh
  10-17      Literacy Council                                                  1,759

             Audit of Corporation for National and Community Service
             AmeriCorps Grants Awarded to US. Committee for Refugees
  11-05      and Immigrants                                                    2,982

             Agreed-Upon Procedures Review of Corporation Grants
             Awarded to the Child Abuse Prevention Council of Sacramento
  11-08      (CAPC) & Prevent Child Abuse California                           9,710

             Agreed-Upon Procedures Review of Corporation Grants
             Awarded to the Virginia Office on Volunteerism and Community
  11-14      Service                                                           6,058

             Agreed-Upon Procedures for Corporation for National and
             Community Service Grants Awarded to Commonwealth of
  11-15      Northern Mariana Islands Public School System (CNMI)              8,952

             Agreed-Upon Procedures Review for Corporation for National
             and Community Service Grants Awarded to Serve Guam!
  11-16      Commission                                                        24,919

                               Total Questioned Costs                         $ 61,352




                                             23
             Appendix D

Corporation’s Response to Draft Report




                 24
corAPorTatiroonJONr AL £ ~

                                                        -------- e0Q
N
f~l~tt~NI¥'{; -----
         MEMORANDUM

         To:                 Stuart Axenfeld Assistant lnsRector General for Audit
                             ~~ ~!{tVX/l~';v:LJ1
         From:               I~vNiZkelson Chief of(!Jrogram Operations

         Date:               October 13, 2011

         Subject:            Response to OIG Draft Report on the Audit of Earned Education Awards
                             Resulting from Compelling Personal Circumstances

         Thank you for the opportunity to comment on the OIG draft report on the Audit of Earned
         Education Awards Resulting from Compelling Personal Circumstances. The audit will provide
         the Corporation with useful information in developing further guidance for AmeriCorps
         programs and CNCS State Office staff. At the outset, it should be noted that only 3.05% of
         AmeriCorps members are released from completing their terms of service for compelling
         personal circumstances, and that partial Segal Education Awards given to those members
         represent only 2.24% of the total amount of all Segal Education Awards. 1 Thus, compelling
         personal circumstances determinations are relatively rare.

         In passing the Kennedy Serve America Act, Congress made clear that AmeriCorps programs
         which supervise AmeriCorps members have the authority to determine whether a member should
         be released for compelling personal circumstances and the authority to certify that members
         released for compelling personal circumstances are entitled to a partial Segal Education Award. 2
         The Corporation has no direct role in either making the compelling personal circumstances
         determinations or the certifications regarding education awards, with the exception of releasing a
         VISTA volunteer or a member of the National Civilian Community Corps (NCCC) from
         completing a term of service. The Corporation's role is limited to assessing charges against the
         AmeriCorps program if it determines that the certification regarding the education award was
         erroneous. Thus, the Corporation's final actions in response to the issues raised in this report
         will reflect that this is a rare event, in which the Corporation generally has a limited role.

         Our role is limited with good reason. Many of the determinations of whether a term of service
         was ended for a compelling personal circumstance involve the exercise of discretion and
         subjective judgments which the programs (as the direct supervisors involved) are best able to
         evaluate. Because ofthis, the compelling personal circumstance determinations of the programs
         are entitled to some degree of deference. Nonetheless, in reviewing the information contained in
         the draft findings, we note that 49% of the compelling personal circumstances determinations
         questioned by the OIG relate to documentation issues (i.e., lack of documentation, incomplete
         documentation, or OIG concerns about the detail of medically-based determinations). We also
         note that about 26% of the determinations questioned by OIG relate to members either leaving
         their term of service for enrollment in school, a job, or economic hardship. These matters are

         1See Table 7 of the draft OIG report.
         2See sections 139(c) and 146A(a) of the National and Community Service Act, 42 U.S.c. §§12593(c) and
         12602a(a).


                              Senior Corps      * AmeriCorps * Learn and Serve America                          1

               1201 New York Avenue, NW     * Washington, DC 20525 * 202-606-5000 * www.nationalservice.gov
    clearly addressed in the Corporation's regulations related to compelling personal circumstances
    determinations. Thus, the audit's findings indicate that AmeriCorps programs are not
    sufficiently familiar with the requirements in the regulations. Accordingly, the Corporation will:

    1. Develop and disseminate to grantees, sponsors and staff written guidance and frequently
       asked questions (F AQs) on the compelling personal circumstances regulations. The guidance
       will include:

       •   Examples of acceptable and unacceptable circumstances for programs to approve
           releasing an AmeriCorps member for compelling personal circumstances;
       •   Options programs have for AmeriCorps members to complete their terms of service
           instead of leaving prior to completion; and
       •   Examples of supporting documentation that adequately support decisions to release an
           AmeriCorps member from their term of service under compelling personal
           circumstances.

2. Review guidance on releasing AmeriCorps members from their term of service for
   compelling personal circumstances in upcoming technical assistance calls with Corporation
   grantees and sponsors and require them to disseminate the agency's guidance on compelling
   personal circumstances to all subgrantees and operating sites.

3. Instruct State Service Commissions and AmeriCorps direct grantees to include review of
   supporting documentation for compelling personal circumstances determinations in their site
   visit monitoring tools.

4. Strengthen the agency's AmeriCorps StatelNational monitoring tools to consistently include
   review of supporting documentation for compelling personal circumstances determinations.

In addition, under its Internal Control Improvement Plan, the Corporation will institute its own
review of a sample of compelling personal circumstance determinations during the first quarter
of fiscal year 2012.

The report recommends that the Corporation "disallow" $378,574 of Segal Education Awards
related to the compelling personal circumstances determinations it considers to be undocumented
or incorrect. The Corporation will have to consider each determination questioned by the OIG
on a case-by-case basis, and therefore cannot agree or disagree with the OIG's recommendation
at this time. After reviewing the relevant information (including any relevant additional
documentation that may be provided by the programs, sponsors and members involved), the
Corporation may determine that some education awards need to be recouped. 3

Finally, we note that the OIG recommends that the Corporation require that all compelling
personal circumstances determinations be reviewed by either the Corporation or the applicable

3 However, the Corporation will not undertake a review of those cases questioned by the OIG solely on the basis that
the AmeriCorps member was pregnant. (See pages 4 and 16 of the draft OIG report). As a matter oflaw and sound
public policy, the Corporation will not undertake any action that could potentially prejUdice a former AmeriCorps
member (or the program or sponsor where the member served) based solely upon the fact of a member's pregnancy.

                                                                                                                  2
State Service Commission. For several reasons, the Corporation will not implement this
recommendation. First, the Congress has made clear that the compelling personal circumstances
determinations are an operational responsibility of the AmeriCorps programs. The statutory role
of the Corporation and State Service Commissions is to oversee how those programs and
sponsors carry out their responsibilities, not to usurp part of those responsibilities.

Second, as noted above, compelling personal circumstances determinations are relatively rare
and have a very limited financial impact on the National Service Trust. The Corporation
considers the operational and organizational cost of having AmeriCorps programs submit these
determinations for outside review by Commissions or the Corporation to be inordinately high
given the low risks involved. As stated in OMB Circular A-123, "[t]oo many controls can result
in inefficient and ineffective government; agency managers must ensure an appropriate balance
between the strength of controls and the relative risk associated with particular programs and
operations. "



cc:    Robert Velasco, Acting Chief Executive Officer
       William Anderson, Chief Financial Officer
       John Gomperts, Director of AmeriCorps StatelNational
       Valerie Green, General Counsel
       Mary Strasser, Director of AmeriCorps VISTA




                                                                                              3
